                                                                                                              I/


         L'+         ' so,                                 NATIONAL SCIENCE FOUNDATION

       <@!
        4
                                                            OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM
                                                                                                               I
         0
                 o
                                                                              I




      Case Number: I071 10047                                                                             Page 1 of 1
                                                                                                               I1




             Our investigation was initiated based upon notification' that a computer network intrusion incident2
             occurred at an NSF facilit?. It was determined that the intruder hid his geographic location by going
             through multiple web proxies before gaining access to the network4via a remote access skrvice.5 The
             intrusion was flagged when Network Operations Center personnel noted repeated unsuccessful attempts
             to send queries to the network equipment. Information security personnel contacted the appropriate
             Information Security Manager, who then issued an order to shut down all remote access services. The
             contractor temporarily disabled remote access services, reconfigured the firewall to prevent hture attacks,       .
             and then re-enabled remote access services.
                                                                              i'


             Our investigation determined that the intruder gained access via the use of the network system
             account password. We interviewed Information Security personnel who had access to thd file that
             contained the compromised network system account password. We found no evidence to link any of
             the individuals interviewed with this incident, nor did we find any additional information or leads in
             this matter.
                                                                                                                   d
             Accordingly, this case is closed.



                                                                                                                    I
                                                                                                                    1 ,




                                                                                                                       I




                                                                                                                       I

                                                                                   I1




             1
               Made by Raytheon Polar Service Company (RPSC), an NSF contractor supporting the US Antarctic Program (USAP).
               The Cisco VPN Concentrator was accessed without authority.
               McMurdo Station
             4
               USAP.gov
               SSL VPN - Secure Sockets Layer Virtual Private Network
                                                                                                                           I

---                                                                                I/
                                                                                                                               -
  NSF OIG Form 2 (1 1/02)
